TN

meme  CQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.

NEW ENGLAND TEAMSTERS AND
TRUCKING INDUSTRY PENSION FUND,
Petitioner,
Vv.
SUN CAPITAL PARTNERS III, LP;
SUN CAPITAL PARTNERS III QP, LP;
AND SUN CAPITAL PARTNERS IV, LP,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 7261 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of August, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska
A. RENEE J. GOSS Kens. 9 ooo Qudea-h Chk
My Comm. Exp. September 5, 2023 “

Notary Public Affiant

 

39863
